                                            CLOSEOUT FOR M92120048


          electronic mail _message from      v
                                         officer. -  e
                                                                  m
                 This case came to the attention of OIG when we received a copy of a

                                                       complainant,
                                                                    (the
                                                                    then a member of the            0
                                    - -- -
        f                                                           reported two instances of alleged
          wrongdoing with regard to r e s ! v e r                      sity . In subsequent telephone
          conversations with the OIG, he made two additional allegations.

                 The complainant alleged (I) that-            faculty member at the     -- university
                                                                                            -         had been
         pressured into participating as a principal investigator on a-                    p r o p o s a l and
         that the proposal had been altered while the faculty member was out of town, (2) that the
         university wasted an NSF grant to purchase                    that it left the instrument unused and
         in storage and never made available a facili to house it, (3) that an administrator at the
         university had forced a researcher in the0 -                          add the administrator as a co-
         principal investigator to a proposal that the administrator had not helped to develop, and (4) that
         the university had a special project that may have used indirect &st funds t o develop new
         proposals and to lobby in Washington to have them funded.

                  Our inquiry was unable to find evidence of misconduct relating to NSF grants or
         proposals in this case. With regard to Allegation #1, there is no evidence that the principal
         investigator was pressured to do anything that violates the norms of science. According to our
         complainant, he agreed to whatever alterations were made in the course of proposal development
         and, in signing the proposal, took responsibility for its content. Similarly, we have no reason
         to believe that the principal investigator misrepresented his participation in the proposed project.
         With regard to Allegation #2, our inquiry did not reveal an NSF grant that fit the complainant's
         description. Likewise, Allegation #3 could not be substantiated because NSF records show no
         proposals from the principal investigator named in the complaint, or from anyone at the
         institution with a similar name. The use of indirect cost funds to develop new proposals,
         described in Allegation #4, is legal. The use of such funds to lobby for grants is not legal, but
         the complainant was unable to provide specific information about lobbying, or any evidence that
         indirect cost funds were used for this purpose.

                If there is a systemic problem at the c o m p l a i n a n t ' ~ n i v e r s i t y he
                                                                                                  , has been unable
         to provide evidence of it with regard to NSF grants or propos&s. This case is closed and no
    ,    further action will be taken.




         Staff Scientist, Oversight
i
I
Concurrence:




Deputy Assistant Inspector General,
Oversight




James J. -2wolenik
Assistant Inspector General for Oversight




Assistant Counsel to the Inspector General



cc: Assistant Inspector General for Oversight
   Inspector General.
